   August 17, 2005




Financial Management
DoD Recovery Audit Program
(D-2005-101)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Office of Inspector General at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms
BIC                   Business Initiative Council
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DWCF                  Defense Working Capital Fund
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
OMB                   Office of Management and Budget
PAR                   Performance and Accountability Report
TMA                   Tricare Management Activity
USD(C)/CFO            Under Secretary of Defense(Comptroller)/Chief Financial Officer
                             INSPECTOR GENERAL
                            'D'EPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGIN lA 22202-4704




                                                                           August 17,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)ICHJEF FINANCIAL OFFICER
SUBJECT: Report on DoD Recovery Audit Program (Report No. D-2005- E 0I )

       We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report. The Deputy
Chief Financial Oficer comments on the draft of this repott conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, no
additional comments are required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides or Mr. Curt W. Malthouse at (6 14) 75 1-1 400. See Appendix C
for the report distribution. The team members are listed h i d e the back cover.
                                By direction ofthe Deputy Inspector General for Auditing:



                                         Paul @ranetto, CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                Service
                Department of Defense Office of Inspector General
Report No. D-2005-101                                                     August 17, 2005
   (Project No. D2004-D000FJ-0150.000)

                           DoD Recovery Audit Program

                                 Executive Summary

Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for identifying and reducing erroneous payments should read this
report. It discusses efforts and methods for using recovery audits to identify and collect
overpayments.

Background. Recovery auditing is a function of management, and the Office of
Management and Budget (OMB) does not consider it auditing in the traditional sense.
Recovery auditors generally use proprietary software to review and analyze a company’s
books, supporting documents, and other available information to identify duplicate or
erroneous payments to vendors. Recovery auditing has become standard practice in the
private sector over the last 20 years.

Section 831 of the FY 2002 National Defense Authorization Act (Public Law 107-107)
requires all Federal agencies with annual payments to contractors exceeding $500 million
to implement a cost-effective recovery audit program. Congress delegated
implementation of this law to OMB. OMB requires Federal agencies to report results of
their recovery audit programs in annual Performance and Accountability Reports.

Results. DoD implemented cost-effective recovery audit programs in two of its Defense
Working Capital Fund Business areas and in one Defense General Fund Business area.
DoD used contract firms in those areas over an 8-year period to perform audits that
recovered approximately $34 million. Additionally, DoD used its internal review staff to
perform recovery audits and DoD successfully recovered $48.2 million. Although the
program has been successful, DoD did not expand its recovery audit program to other
business areas, citing their lack of suitability. We concluded that further study of other
areas in DoD is needed. Activities that appear to be good candidates, including activities
funded with General Fund Appropriations, were never studied, and the use of recovery
audits in the area of contract administration was not adequately explored. Additionally,
DoD needed to fully report the success of its internal recovery audit efforts in its
FY 2004 Performance and Accountability Report. We concluded that the FY 2004
Performance and Accountability Report understated the recovery audit results by at least
$27.1 million in FY 2004. (See the Finding section for the detailed recommendations.)

Management Comments. The Deputy Chief Financial Officer concurred and stated that
policy to implement a cost-effective recovery audit program that expands DoD recovery
audit efforts would be issued by August 31, 2005. She also agreed to establish a program
manager for the DoD recovery audit program by September 30, 2005. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                         i

Background                                               1

Objective                                                1

Finding
     Expanding the Recovery Audit Program                 2

Appendixes
     A. Scope and Methodology                            10
     B. Prior Coverage                                   11
     C. Report Distribution                              12

Management Comments
     Office of the Under Secretary of Defense Comments   15
Background
    Some Federal agencies, including DoD (the Department), have tested the use of
    recovery auditing and had success. As a result of the successes of those agencies’
    tests, Congress enacted a requirement to implement recovery auditing programs
    throughout the Government. Section 831 of the FY 2002 National Defense
    Authorization Act (Public Law 107-107) requires all Federal agencies with annual
    payments to contractors exceeding $500 million to implement a cost-effective
    recovery audit program. Congress delegated implementation of this law to the
    Office of Management and Budget (OMB).

    OMB provided implementing guidance to all Federal agencies in Memorandum
    M-03-07, “Programs to Identify and Recover Erroneous Payments to
    Contractors,” (OMB Memorandum M-03-07) on January 16, 2003. OMB
    Memorandum M-03-07 defines a recovery audit as a review of an agency’s
    books, supporting documents, and other information that is specifically designed
    to identify overpayments to contractors. The memorandum states that “It [a
    recovery audit] is not an audit in the traditional sense. Rather it is a control
    activity designed to assure the integrity of contract payments, and as such, it is a
    management function and responsibility.”

    The OMB memorandum also states that either employees of the executive agency
    or contractors (performing recovery audit services under contracts awarded by the
    executive agency) may perform recovery audits. In addition, OMB requires
    agencies to identify classes of contracts suitable for review by recovery auditors.
    Agencies are also required to report on recovery audit programs in the annual
    Performance and Accountability Report (PAR).

    In the past, recovery auditors were retained on a contingency fee basis and the
    amount paid to them was a percentage of the amount that was collected.
    Recovery auditors hired by DoD were typically paid between 20 and 25 percent
    of the amounts that were actually collected. According to industry experts in the
    private sector, a good recovery auditor will usually recoup 0.1 percent for every
    dollar spent by the company.
    The Defense Finance and Accounting Service (DFAS) reported that it paid DoD
    contractors and vendors approximately $205 billion during FY 2004. Using
    industry standards, a successful DoD-wide program could expect to identify
    $205 million in recoveries.


Objective
    Our audit objective was to determine whether DoD implemented a cost-effective
    program to recover amounts erroneously paid to contractors. See Appendix A for
    a discussion of the scope and methodology and see Appendix B for prior coverage
    related to the objective.




                                          1
           Expanding the Recovery Audit Program
           DoD implemented successful recovery audit programs using contract
           firms in two Defense Working Capital Fund (DWCF) areas and one
           Defense General Fund business area. Approximately $34 million has been
           recovered in those business areas from FY 1997 through FY 2004. DoD
           did not expand the program to other business areas, citing lack of
           suitability. We concluded that further study of those areas is needed
           because activities funded with general fund appropriations were excluded
           from study, and application in the area of contract administration had not
           been explored. DoD has also used internal staff to perform recovery
           audits and successfully recovered $48.2 million. DoD needed to fully
           report the success of those efforts in its FY 2004 Performance and
           Accountability Report (PAR). We determined that the PAR understated
           the recovery audit results by at least $27.1 million in FY 2004.


DoD Implementation of a Recovery Audit Program
    DoD began a recovery audit pilot program in 1996 at the Defense Logistics
    Agency (DLA) Defense Supply Center in Philadelphia. This pilot program was
    initiated in response to section 354 of the FY 1996 National Defense
    Authorization Act that required DoD to evaluate the feasibility of using private
    contractors to identify overpayments made to DoD vendors.

    In a response to Government Accountability Office (GAO) report, Report No.
    GAO/NSIAD-00-134, “Contract Management: DoD’s Use of Recovery
    Auditing,” June 2000, the Under Secretary of Defense Deputy Comptroller
    (Program/Budget) stated that recovery auditing was a valuable management tool
    and that the Department would expand its use of recovery auditing as part of
    ongoing efforts to improve business practices.

    In 2001 the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    (USD[C]/CFO) deemed the pilot program successful and ready for expansion to
    other DWCF activities. The USD(C)/CFO stated that several DLA activities and
    the Navy Fleet Industrial Supply Center had recovered a total of $7.2 million
    since 1999. The USD(C)/CFO also stated that, subsequent to the successful pilot
    program results, he endorsed the use and expansion of recovery audits to the other
    DWCF activities.

    In December 2001, the USD(C)/CFO updated chapter 18 of the DoD Financial
    Management Regulation (FMR), volume 10, “Contract Payment Policy and
    Procedures,” to provide the following guidance regarding the use of recovery
    auditing.
           Recovery Auditing. The use of contingency fee auditing services
           contracts to identify and recover contractor overpayments is
           encouraged within the Department, on a case-by-case basis,
           particularly for debts arising from overpayments of the Working
           Capital funds.




                                         2
    In July 2001 the Under Secretary of Defense for Acquisition, Technology, and
    Logistics announced the establishment of the Business Initiative Council (BIC) to
    improve the business operations of DoD through an array of short- and long-term
    initiatives. One of the first initiatives approved by the BIC was the full
    implementation of recovery auditing for all DWCF activities. A BIC recovery
    audit initiative was established, and a program champion was assigned. The
    program champion was picked from the Department of the Navy.

    Despite the success of the program in some areas, the BIC suspended the recovery
    audit initiative in September 2003. According to the official minutes of the BIC
    meeting, the Navy representative on the Executive Steering Committee of the BIC
    stated that the recovery audit initiative was not cost-effective. The BIC then
    agreed to suspend the program. The conclusion was contrary to successful
    recovery audit efforts at DLA and subsequent successful efforts at the Tricare
    Management Activity (TMA). In addition, the conclusion was not supported by a
    cost-benefit analysis.

    According to contract documents, the DLA recovery audit programs recovered
    about $17.3 million from inception through FY 2004. The recoveries in FY 2004
    were primarily related to contract management issues such as the untimely entry
    of contract modifications and other contract administration errors. Although the
    DLA recovery audit contract expired on August 31, 2004, DLA officials told us
    that they were drafting a new contract and have designated a program
    management office and a program manager to oversee the process. In addition,
    DLA told us that the new contract will cover payments it made since the previous
    contract expired in August.

    The TMA recovery audit recouped $16.6 million during FY 2004, the first year of
    its program. TMA had no plans to discontinue the efforts in the future.


DWCF Recovery Audit Contract Results
    Although DoD suspended the business initiative it was using to expand and fully
    pursue a recovery auditing program throughout the Department, DoD needed to
    continue to consider expanding its use of recovery audits. Expansion should be
    considered in 14 major business areas of the DWCF in accordance with the DoD
    FMR, volume 10, “Contract Payment Policy and Procedures,” December 2001.

    The table shows the DWCF activities that we estimate exceeded the $500 million
    threshold established by Public Law 107-107, the dollar amounts recovered in
    FY 2004, and the status of their respective recovery audit programs.




                                        3
                             DWCF Recovery Audit Program
                                   ($ in millions)

                                                  Estimated                          Recovery
                                                FY04 Contract         FY04             Audit
        DWCF Activity Group                      Payments*          Recoveries       Contract
Army Supply Management                             6,166.8                0             No
Army Depot Maintenance                             2,294.6                0             No
Navy Supply Management                             5,246.3              0.21            Yes
Navy Depot Maintenance                             2,322.3                0             No
Navy Research and Development                      5,395.9                0             No
Navy Base Support                                  1,072.2                0             No
Navy Transportation                                1,228.9                0             No
Air Force Supply Management                        9,903.5                0             No
Air Force Depot Maintenance                        4,950.4                0             No
Air Force Information Services                       527.1                0             No
Defense Finance and Accounting Service               719.5                0             No
Defense Information Systems Agency                 3,127.3                0           Pending
DLA Supply Management                             22,993.4              5.64         Pending**
DLA Distribution Depots                            1,691.7                0             No
Defense Commissary Agency                          5,565.0                0           Expired
U.S. Transportation Command                        7,192.7                0           Expired
Total                                             80,397.6              5.85

 * We used DoD budget reports to estimate the annual contract payments. Actual payment data
aggregated by DWCF activity groups were not available.
** The DLA Supply Management recovery audit program was active during FY 2004. Issuance of a new
contract for recovery auditing services was pending at the time of the audit.


        The table shows that 14 of the 16 DWCF activities did not have an active
        recovery audit program in place during FY 2004. Recovery audits were not
        applied to approximately $52.2 billion in FY 2004 payments made by the
        remaining 14 Defense business areas. Only the Navy and DLA supply
        management business areas implemented programs. Those activities had some
        success.

        Navy Results. Navy invoices show that recovery audit efforts were limited, and
        only $350,000 has been recovered since it began using recovery auditors. In
        FY 2004 the Navy recovered $211,185. Navy personnel indicated that their
        contracts are complex and many need to be sanitized prior to scrutiny by the
        contractor to protect classified and proprietary information that is resident in the
        contract files. This limited the success of the program in the past. Despite the
        limited success, the Navy maintained an active recovery audit contract in order to
        comply with the program requirements of Public Law 107-107.




                                                4
    DLA Results. DLA is another working capital fund activity that used recovery
    auditors to review payments made by its supply management business area. DLA
    used a pilot program that began in 1996 and recoveries on the first of two
    contracts occurred in FY 1997. Contract invoices submitted by the recovery
    auditor are shown in the following graph that depicts DLA recovery efforts.


                                   DLA Collections by Fiscal Year


      $6,000,000

      $5,000,000

      $4,000,000

      $3,000,000

      $2,000,000

      $1,000,000

             $0
                   FY 97   FY 98   FY 99      FY 00     FY 01       FY 02   FY 03   FY 04




    The graph shows that overpayments were collected in each fiscal year since
    FY 1997 as a result of the DLA recovery audit program. The contract invoice
    data indicate that DLA recovered about $17.3 million since FY 1997. Cognizant
    officials told us that the FY 2004 recoveries were primarily associated with
    contract modification and administration issues.


Expanding and Managing Use of Recovery Audit Contracts
    DoD needed to consider expanding use of the recovery audit program, especially
    in the area of contracting. Previous recovery audit efforts were limited and
    mainly focused on payments made by DoD.

    The first step in managing an expansion of the recovery audit program is
    establishment of an overall recovery audit program manager in DoD. DoD
    officials, former members of the BIC, and recovery auditors told us that the DoD
    recovery audit program cannot be expanded beyond its current state unless DoD
    establishes a program manager to oversee implementation of the program.

    Recovery auditors (outside the Department) told us that results from the program
    would be more significant if DoD established a program manager to adjudicate
    cross cutting issues related to data access. They indicated that DWCF officials
    are reluctant to provide them access to contract files that typically constitute 80
    percent of recovery audit findings. At least five other Government agencies
    (General Services Administration, Department of Justice, Department of
    Transportation, Department of Interior, and the Social Security Administration)
    allow recovery auditors to access their respective contract files. Additionally,


                                              5
     within DoD, TMA has demonstrated that complex contract files (overseen by the
     Defense Contract Auditing Agency) can successfully be reviewed by recovery
     auditors.

     Cognizant officials and recovery auditors told us that problems obtaining useful
     and timely contract disbursement data precluded successful implementation of a
     program in the Defense Commissary Agency. The problems were not resolved,
     and the contract was discontinued after 1 year. If DoD established a process,
     overseen by a project manager, similar issues on future recovery audit contracts
     could be minimized.

     OMB Memorandum M-03-07 provides that agency heads may exclude classes of
     contracts if the agency head determines that recovery audits are not a cost-
     effective method for identifying erroneous payments. Accordingly, DoD needs to
     perform a cost-benefit analysis and identify the classes of contracts most suitable
     for review by recovery auditors before expanding the program to other business
     areas and DoD activities. The USD(C)/CFO needs to designate a program
     manager to oversee the implementation of the recovery audit program and ensure
     that effective rules for access to records are established and that cost-benefit
     analyses are used to support decisions on where recovery audits are used.


Access to Contract Files and Expansion to General Fund
  Activities
     DoD did not issue guidance that provided recovery auditors access to required
     contract files. When DoD establishes a program manager, one of the manager’s
     first tasks should be to improve access to contract files.

     Another key action DoD needs to do is to examine DoD general fund activities to
     fully explore the use of recovery audits in those activities. Despite the successes
     of a limited number of recovery audits, DoD has not studied expansion of the
     program into many of the general fund activities. DoD officials indicated that the
     general fund areas in the Department were not suitable candidates for recovery
     auditing. However, there was no study of the suitability performed.

     Public Law 107-107 requires all Federal agencies with annual payments to
     contractors exceeding $500 million to implement a cost-effective recovery audit
     program. According to DFAS, total FY 2004 payments to contractors and
     vendors exceeded $205 billion. With the exception of the DWCF business areas
     noted in the table, the majority of these payments are attributable to programs
     funded with direct appropriations that have not been subject to review by
     recovery audit contracts.

     Department of Treasury reports show that many DoD general fund appropriations
     had outlays exceeding $500 million in FY 2004. According to the “Fiscal Year
     2004 Detail of Appropriations, Outlays, and Balances,” there were 41 separate
     DoD general fund appropriations with FY 2004 outlays exceeding $500 million.
     In total, Treasury reported FY 2004 outlays of about $317.1 billion from the 41
     appropriations.




                                          6
    The DoD FMR, volume 10, chapter 18, “Contract Payment Policy and
    Procedures,” December 2001, encourages the use of recovery auditing only for
    DWCF activities. The USD(C)/CFO needs to issue new DoD policy to ensure
    that the DoD recovery audit program is considered throughout DoD and
    implemented where appropriate in accordance with Public Law 107-107 and
    OMB Memorandum M-03-07.


DoD Internal Efforts to Recover Overpayments
    DoD officials told us that the recovery audit efforts may have been limited
    because internal efforts were already being used by DoD to identify duplicate
    payments. DFAS and TMA used internal audits and payment system control
    techniques to identify and recover contract overpayments. The techniques used
    by DFAS and TMA are somewhat similar to techniques used by private industry.

    DFAS Results. According to DFAS reports, edit routines that automatically
    detect duplicate payments and data mining software identified about $65.4 million
    in duplicate payments in FY 2004. The edit routines prevented DFAS from
    making $54.9 million in potential duplicate payments. DFAS referred the
    remaining $10.5 million for recovery. In addition, 23 separate audits, conducted
    by the DFAS internal review staff, recovered $37.7 million in overpayments since
    FY 2000.

    DFAS efforts to identify erroneous payments reduced the potential pool of
    overpayments that would be available for recovery audits to detect. As such, the
    DFAS efforts need to be considered in the cost-benefit analysis used to measure
    the success of the program and in any justification for expanding the recovery
    audit program to other business areas and other DoD activities. However,
    recovery auditing officials indicated that most savings relate to contract
    administration issues. DoD should not allow contractors to duplicate efforts
    already being performed internally.

    TMA Results. In FY 2004, TMA demonstrated that a DoD program funded by
    direct appropriation can benefit from a successfully implemented recovery audit
    program. TMA recovered $16.6 million in FY 2004 using recovery audit
    techniques.

    TMA also used special software to detect fraudulent and duplicate billings. In
    FY 2003, TMA reported that its software stopped $87.6 million in fraudulent or
    abusive billings. In addition TMA reported that from calendar years 1997
    through 2003 special duplicate edit software identified and accounted for
    $89.6 million in recoupments and offsets. Despite those efforts, a pool of
    recoverable overpayments remained and in FY 2004, TMA implemented a
    successful recovery audit contract that recovered the additional $16.6 million.


Reporting Recovery Audit Results
    The USD(C)/CFO gathered and presented the recovery audit information shown
    in the Department’s FY 2004 PAR. Although it included recoveries identified by


                                        7
contract auditors, the compilation process for FY 2004 omitted the internal efforts
by DFAS and did not identify the TMA recovery audit contract. This resulted in
understating recoveries by at least $27.1 million.

FY 2004 was the first year that Public Law 107-107 required agencies to report
on their recovery audit programs. OMB Memorandum M-04-20, “FY 2004
Performance and Accountability Reports and Reporting Requirements for the
Financial Report of the United States Government,” July 22, 2004, promulgated
agency reporting requirements.

For FY 2004 the USD(C)/CFO included results for only the Navy and DLA
recovery audit contracts in Appendix A of the PAR. DoD officials responsible
for collecting the data for the PAR told us that they did not know about the TMA
recovery audit contract and therefore did not report the results. According to
documents provided by TMA, the recovery audit contract resulted in $16.6
million in recoveries for FY 2004.

In addition, the PAR omitted $10.5 million in duplicate payments identified for
recovery by DFAS. We concluded that the techniques used by DFAS (edit
routines and data mining) to identify duplicate payments are recovery audits and
should be reported as such in the PAR.

The USD(C)/CFO needs to develop and implement an improved process for
compiling a more complete and accurate compendium of information on the DoD
recovery audit program to ensure full disclosure and compliance with OMB
reporting requirements for the PAR.




                                     8
Recommendations and Management Comments
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

    1. Issue policy to consistently implement a cost-effective recovery audit
    program as required by Public Law 107-107 and Office of Management and
    Budget Memorandum M-03-07. The policy should require DoD activities
    and programs to:

          a. Perform cost-benefit analyses that consider Defense Finance and
    Accounting Service efforts to reduce the pool of overpayments.

           b. Determine the classes of contracts to be included.

            c. Expand the program to those business areas and general fund
    activities most likely to experience overpayments due to contract
    administration errors.

    Management Comments. The Deputy Chief Financial Officer concurred and
    stated that policy to implement a cost-effective recovery audit program that
    expands DoD recovery audit efforts would be issued by August 31, 2005.

    2. Establish and designate a program manager to:

           a. Develop and implement a process for compiling complete and
    accurate information on the DoD recovery audit program to ensure full
    disclosure and compliance with Office of Management and Budget annual
    reporting requirements.

           b. Oversee implementation of the DoD recovery audit program.

           c. Establish cost-effective rules for access to contract data files.

           d. Ensure that cost-benefit analyses are completed by management in
    a timely and consistent manner.

           e. Ensure that contractors do not duplicate efforts performed
    internally.

    Management Comments. The Deputy Chief Financial Officer concurred and
    agreed to establish a program manager for the DoD recovery audit program by
    September 30, 2005.




                                        9
Appendix A. Scope and Methodology
   We assessed whether DoD complied with the requirements of Public Law
   No. 107-107 (Section 831 of FY 2002 National Defense Authorization Act) as
   implemented by OMB Memorandum M-03-07, January 16, 2003. We obtained
   contractor invoices and contract payment data from DFAS Columbus, Navy
   Supply Systems Command, and TMA Aurora. We analyzed the invoices to
   determine the dollar amount of collections for fiscal years 1997 through 2004 but
   did not verify these amounts to the accounting records. Based on our analysis of
   the invoices, we estimated that about $34 million was recovered from FY 1997
   through FY 2004. We will complete additional work related to the processing
   and disposition of recoveries from recovery audit contracts during a subsequent
   audit. Specifically, we will assess the process of evaluating and processing
   claims, recovering funds, and the awarding of fees to recovery audit contractors.

   We analyzed FY 2004 DoD budget documents–revenue and expense statements–
   to estimate the amount of annual payments to contractors by DWCF activities.
   For example, we identified the expenses, such as for depreciation and personnel
   costs, which are not likely to represent contract payments. We considered the
   remaining expenses to be a fair estimate of payments to contractors. In addition,
   we analyzed FY 2004 Department of Treasury reports to identify DoD
   appropriations with outlays exceeding $500 million.

   We utilized FY 2004 disbursement and payment data compiled by DFAS. DFAS
   provided spreadsheets showing that vendor and contract payments (called
   commercial payments) totaled $205 billion in FY 2004. According to DFAS, the
   $205 billion excludes progress payments and commercial payments made by
   other DoD activities. We did not verify the accuracy of the supporting data.

   We also reviewed past GAO reports, Congressional requests, meeting minutes,
   and survey results, and interviewed DoD management to determine whether the
   Department implemented a cost-effective recovery audit program.

   Review of the management control program was not an objective of the audit and
   we did not complete a review of the program.

   We performed this audit from June 2004 through April 2004 in accordance with
   generally accepted government auditing standards.
   Use of Computer-Processed Data. We analyzed FY 2004 DoD budget
   documents–revenue and expense statements–to estimate the amount of annual
   payments to contractors by DWCF activities. The data were compiled by DoD
   from Department budgetary records and were presented as part of the President’s
   Budget. We did not verify the accuracy of the supporting data.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the contract payment and financial management high-risk
   areas.




                                       10
Appendix B. Prior Coverage
   During the last 5 years, the Government Accountability Office (GAO) has issued
   seven reports discussing Recovery Auditing. Unrestricted GAO reports can be
   accessed over the Internet at http://www.gao.gov.


GAO
   GAO Report No. GAO-02-635, “DoD Contract Management: Overpayments
   Continue and Management and Accounting Issues Remain,” May 24, 2002

   GAO Report No. GAO/NSIAD-00-134, “Contract Management: DOD’s Use of
   Recovery Auditing,” June 16, 2000

   GAO Report No. GAO/NSAID-00-66R Recovery Auditing, “Contract
   Management: DoD Could Benefit From the Use of Internal Recovery Auditing,”
   March 10, 2000

   GAO Report No. GAO/T-NSIAD-99-213, “Recovery Auditing: Reducing
   Overpayments, Achieving Accountability, and the Government Waste
   Corrections Act of 1999, Statement of David M. Walker, Comptroller General of
   the United States” June 29, 1999

   GAO Report No. GAO/T-NSIAD-99-193, “Department of Defense: Improving
   the DoD Payment Process, Using Recovery Auditing and Changing the Prompt
   Payment Act, Statement of David Cooper, Associate Director, Defense
   Acquisition Issues,” June 16, 1999

   GAO Report No. GAO/NSIAD-99-78, “Contract Management: DoD Is
   Examining Opportunities to Further Use Recovery Auditing,” March 17, 1999

   GAO Report No. GAO/NSIAD-99-12, “Contract Management: Recovery
   Auditing Offers Potential to Identify Overpayments,” December 3, 1998




                                     11
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Transportation Command




                                          12
Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         13
Office of the Under Secretary of Defense
Comments




                       15
16
17
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
Curt W. Malthouse
John R. Williams
Benjamin M. Howison
Ann Thompson
Meredith H. Johnson
